                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                           November 9, 2011



MEMORANDUM TO:             Chairman Jaczko


FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   RESULTS OF THE AUDIT OF THE UNITED STATES
                           NUCLEAR REGULATORY COMMISSION'S FINANCIAL
                           STATEMENTS FOR FISCAL YEAR 2011 (OIG-12-A-03)


The Chief Financial Officers Act of 1990, as amended (CFO Act), requires the Inspector
General (IG) or an independent external auditor, as determined by the IG, to annually
audit the United States Nuclear Regulatory Commission’s (NRC) financial statements in
accordance with applicable standards. In compliance with this requirement, the Office
of the Inspector General (OIG) retained Urbach Kahn & Werlin, LLP, which merged with
Clifton Gunderson, LLP (CG), to conduct this annual audit. Transmitted with this
memorandum are the following CG reports:

      Opinion on the Principal Statements.

      Opinion on Internal Control.

      Compliance with Laws and Regulations.

NRC’s Performance and Accountability Report includes comparative financial
statements for FY 2011 and FY 2010. Therefore, it is important to note that Urbach
Kahn & Werlin, LLP, performed the audit of NRC’s FY 2010 financial statements. CG
performed the audit of NRC’s FY 2011 financial statements.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the audited entity’s
financial statements are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and
significant estimates made by management as well as evaluating the overall financial
statement presentation.

CG’s audit and examination were made in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards issued by
the Comptroller General of the United States; attestation standards established by the
American Institute of Certified Public Accountants; and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended. The audit included, among other things, obtaining an understanding of
NRC and its operations, including internal control over financial reporting; evaluating the
design and operating effectiveness of internal control and assessing risk; and testing
relevant internal controls over financial reporting. Because of inherent limitations in any
internal control, misstatements due to error or fraud may occur and not be detected.
Also, projections of any evaluation of the internal control to future periods are subject to
the risk that the internal control may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may
deteriorate.

FY 2011 Audit Results

The results are as follows:

       Financial Statements

              Unqualified opinion

       Internal Controls

              Unqualified opinion

       Compliance with Laws and Regulations

              No reportable instances of noncompliance/no substantial noncompliance
              noted

Office of the Inspector General Oversight of CG Performance

To fulfill our responsibilities under the CFO Act and related legislation for oversight of
the quality of the audit work performed, we monitored CG’s audit of NRC’s FY 2011
financial statements by:

       Reviewing CG’s audit approach and planning.

       Evaluating the qualifications and independence of CG’s auditors.

       Monitoring audit progress at key points.
      Examining the working papers related to planning and performing the audit and
      assessing NRC’s internal controls.

      Reviewing CG’s audit reports for compliance with Government Auditing
      Standards and OMB Bulletin No. 07-04, as amended.

      Coordinating the issuance of the audit reports.

      Performing other procedures deemed necessary.

CG is responsible for the attached auditor’s reports, dated November 7, 2011, and the
conclusions expressed therein. OIG is responsible for technical and administrative
oversight regarding the firm’s performance under the terms of the contract. Our
oversight, as differentiated from an audit in conformance with Government Auditing
Standards, was not intended to enable us to express, and accordingly we do not
express, an opinion on:

      NRC’s financial statements.

      The effectiveness of NRC’s internal control over financial reporting.

      NRC’s compliance with laws and regulations.

However, our monitoring review, as described above, disclosed no instances where CG
did not comply, in all material respects, with applicable auditing standards.

Meeting with the Chief Financial Officer

At the exit conference on November 8, 2011, representatives of the Office of the Chief
Financial Officer, OIG, and CG discussed the results of the audit.

Comments of the Chief Financial Officer

In his response, the Chief Financial Officer (CFO) agreed with the report. The full text
of the CFO’s response follows this report.

We appreciate NRC staff’s cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      N. Mamish, OEDO
      K. Brock, OEDO
      C. Jaegers, OEDO
                                            INDEPENDENT AUDITOR’S REPORT


                  Inspector General
                  United States Nuclear Regulatory Commission

                  Chairman
                  United States Nuclear Regulatory Commission


                  In our audit of the United States Nuclear Regulatory Commission (NRC) for fiscal year
                  2011, we found:

                             The financial statements are presented fairly, in all material respects, in
                             conformity with accounting principles generally accepted in the United States of
                             America.
                             The NRC maintained, in all material respects, effective internal control over
                             financial reporting.
                             We noted no reportable instances of noncompliance with federal financial
                             management systems requirements, applicable Federal accounting standards,
                             and the United States Government Standard General Ledger (USSGL) at the
                             transaction level.
                             We noted no reportable instances of noncompliance with laws and regulations
                             we tested.

                  The following sections discuss in more detail (1) these conclusions and our conclusions
                  relating to other information presented in the Management’s Discussion and Analysis
                  and other supplementary information, (2) management’s responsibilities, and (3) our
                  objectives, scope and methodology.

                  Opinion on the Financial Statements

                  In our opinion, the financial statements including the accompanying notes present fairly,
                  in all material respects, the financial position of the NRC as of September 30, 2011 and
                  2010, and its net cost, changes in net position, and budgetary resources for the years
                  then ended, in conformity with accounting principles generally accepted in the United
                  States of America. The financial statements of NRC as of September 30, 2010 were
                  audited by Urbach Kahn & Werlin LLP, which practice was acquired by Clifton
                  Gunderson LLP by merger on March 22, 2010. Urbach Kahn & Werlin LLP’s report
                  dated November 7, 2010, expressed an unqualified opinion on those financial
                  statements.




4250 N. Fairfax Drive, Suite 1020
Arlington, Virginia 22203
tel: 571.227.9500
fax: 571.227.9552
www.cliftoncpa.com                                 Offices in 17 states and Washington DC   
               INDEPENDENT AUDITOR’S REPORT, CONTINUED

Opinion on Internal Control

In our opinion, the NRC maintained, in all material respects, effective control over
financial reporting as of September 30, 2011, that provided reasonable assurance that
misstatements, losses or noncompliance material in relation to the financial statements
would be prevented, or detected and corrected, on a timely basis. Our opinion is based
on criteria established under 31 U.S.C. 3512 (c), (d), the Federal Managers’ Financial
Integrity Act (FMFIA), and the Office of Management and Budget (OMB) Circular No. A-
123, Management’s Responsibility for Internal Control, and Government Accountability
Office’s (GAO’s) Standards for Internal Control in the Federal Government, as required
by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, as
amended.

Compliance with Laws and Regulations

Under the Federal Financial Management Improvement Act (FFMIA), we are required to
report whether the NRC’s financial management systems substantially comply with
federal financial management systems requirements, applicable Federal accounting
standards, and the USSGL at the transaction level. To meet this requirement, we
performed tests of compliance with the provisions of FFMIA Section 803(a). The results
of our tests disclosed no substantial noncompliance with federal financial management
systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level.

The results of our tests of compliance with laws and regulations disclosed no instances
of noncompliance that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Providing an opinion on compliance with laws and regulations
was not an objective of our audit and, accordingly, we do not express such an opinion.

Other Information

The information in Management’s Discussion and Analysis and other Required
Supplementary Information in NRC’s Performance and Accountability Report is not a
required part of the financial statements, but is supplementary information required by
accounting principles generally accepted in the United States of America. We have
applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of the
supplementary information. However, we did not audit the information and express no
opinion on it.

The Program Performance and Other Accompanying Information sections listed in the
Table of Contents are presented for additional analysis and are not a required part of the
financial statements. Such information has not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express
no opinion on them.
               INDEPENDENT AUDITOR’S REPORT, CONTINUED

Management Responsibilities

Management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America, (2)
establishing and maintaining effective internal control over financial reporting, and
evaluating its effectiveness, (3) ensuring that the NRC’s financial management systems
substantially comply with FFMIA requirements, and (4) complying with applicable laws
and regulations. NRC management evaluated the effectiveness of NRC’s internal control
over financial reporting as of September 30, 2011, based on criteria established under
FMFIA. NRC management’s assurances are included in the Management’s Discussion
and Analysis.

Objectives, Scope and Methodology

We are responsible for planning and performing our audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation.

We are responsible for planning and performing our examination to obtain reasonable
assurance about whether management maintained, in all material respects, effective
internal control over financial reporting as of September 30, 2011. Our examination
included obtaining an understanding of NRC and its operations, including internal control
over financial reporting; considering NRC’s process for evaluating and reporting on
internal control over financial reporting which the NRC is required to perform by FMFIA;
assessing the risk that a material misstatement exists in the financial statements and the
risk that a material weakness exists in internal control over financial reporting; evaluating
the design and operating effectiveness of internal control and assessing risk; testing
relevant internal controls over financial reporting; and performing such other procedures
as we considered necessary in the circumstances. We did not test all internal controls
relevant to operating objectives as broadly defined by FMFIA.

An entity’s internal control over financial reporting is a process effected by those charged
with governance, management, and other personnel, the objectives of which are to
provide reasonable assurance that (1) transactions are properly recorded, processed,
and summarized to permit the preparation of financial statements in accordance with
accounting principles generally accepted in the United States of America, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; and
(2) transactions are executed in accordance with the laws governing the use of budget
authority and other laws and regulations that could have a direct and material effect on
the financial statements.

Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal
control to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.
               INDEPENDENT AUDITOR’S REPORT, CONTINUED

We are also responsible for testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not
test compliance with all laws and regulations applicable to the NRC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and
material effect on the financial statements and those required by OMB audit guidance
that we deemed applicable to the financial statements for the fiscal year ended
September 30, 2011. We caution that noncompliance may occur and not be detected by
these tests and that such testing may not be sufficient for other purposes.

We conducted our audit and examinations in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards,
issued by the Comptroller General of the United States; attestation standards
established by the American Institute of Certified Public Accountants; and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
believe that our audit and examinations provide a reasonable basis for our opinions.

We noted less significant matters involving the NRC’s internal control and its operation,
which we have reported to agency management separately.

Distribution

This report is intended solely for the information and use of the NRC Office of Inspector
General, the management of NRC, OMB, the GAO, and the United States Congress,
and is not intended to be and should not be used by anyone other than these specified
parties.




Arlington, Virginia
November 7, 2011
                                            INDEPENDENT AUDITOR’S REPORT


                  Inspector General
                  United States Nuclear Regulatory Commission

                  Chairman
                  United States Nuclear Regulatory Commission


                  In our audit of the United States Nuclear Regulatory Commission (NRC) for fiscal year
                  2011, we found:

                             The financial statements are presented fairly, in all material respects, in
                             conformity with accounting principles generally accepted in the United States of
                             America.
                             The NRC maintained, in all material respects, effective internal control over
                             financial reporting.
                             We noted no reportable instances of noncompliance with federal financial
                             management systems requirements, applicable Federal accounting standards,
                             and the United States Government Standard General Ledger (USSGL) at the
                             transaction level.
                             We noted no reportable instances of noncompliance with laws and regulations
                             we tested.

                  The following sections discuss in more detail (1) these conclusions and our conclusions
                  relating to other information presented in the Management’s Discussion and Analysis
                  and other supplementary information, (2) management’s responsibilities, and (3) our
                  objectives, scope and methodology.

                  Opinion on the Financial Statements

                  In our opinion, the financial statements including the accompanying notes present fairly,
                  in all material respects, the financial position of the NRC as of September 30, 2011 and
                  2010, and its net cost, changes in net position, and budgetary resources for the years
                  then ended, in conformity with accounting principles generally accepted in the United
                  States of America. The financial statements of NRC as of September 30, 2010 were
                  audited by Urbach Kahn & Werlin LLP, which practice was acquired by Clifton
                  Gunderson LLP by merger on March 22, 2010. Urbach Kahn & Werlin LLP’s report
                  dated November 7, 2010, expressed an unqualified opinion on those financial
                  statements.




4250 N. Fairfax Drive, Suite 1020
Arlington, Virginia 22203


                                                                                            
tel: 571.227.9500
fax: 571.227.9552
www.cliftoncpa.com                                 Offices in 17 states and Washington DC
Opinion on Internal Control

In our opinion, the NRC maintained, in all material respects, effective control over
financial reporting as of September 30, 2011, that provided reasonable assurance that
misstatements, losses or noncompliance material in relation to the financial statements
would be prevented, or detected and corrected, on a timely basis. Our opinion is based
on criteria established under 31 U.S.C. 3512 (c), (d), the Federal Managers’ Financial
Integrity Act (FMFIA), and the Office of Management and Budget (OMB) Circular No. A-
123, Management’s Responsibility for Internal Control, and Government Accountability
Office’s (GAO’s) Standards for Internal Control in the Federal Government, as required
by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, as
amended.

Compliance with Laws and Regulations

Under the Federal Financial Management Improvement Act (FFMIA), we are required to
report whether the NRC’s financial management systems substantially comply with
federal financial management systems requirements, applicable Federal accounting
standards, and the USSGL at the transaction level. To meet this requirement, we
performed tests of compliance with the provisions of FFMIA Section 803(a). The results
of our tests disclosed no substantial noncompliance with federal financial management
systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level.

The results of our tests of compliance with laws and regulations disclosed no instances
of noncompliance that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Providing an opinion on compliance with laws and regulations
was not an objective of our audit and, accordingly, we do not express such an opinion.

Other Information

The information in Management’s Discussion and Analysis and other Required
Supplementary Information in NRC’s Performance and Accountability Report is not a
required part of the financial statements, but is supplementary information required by
accounting principles generally accepted in the United States of America. We have
applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of the
supplementary information. However, we did not audit the information and express no
opinion on it.

The Program Performance and Other Accompanying Information sections listed in the
Table of Contents are presented for additional analysis and are not a required part of the
financial statements. Such information has not been subjected to the auditing
procedures applied in the audit of the financial statements and, accordingly, we express
no opinion on them.
Management Responsibilities

Management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America, (2)
establishing and maintaining effective internal control over financial reporting, and
evaluating its effectiveness, (3) ensuring that the NRC’s financial management systems
substantially comply with FFMIA requirements, and (4) complying with applicable laws
and regulations. NRC management evaluated the effectiveness of NRC’s internal control
over financial reporting as of September 30, 2011, based on criteria established under
FMFIA. NRC management’s assurances are included in the Management’s Discussion
and Analysis.

Objectives, Scope and Methodology

We are responsible for planning and performing our audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation.

We are responsible for planning and performing our examination to obtain reasonable
assurance about whether management maintained, in all material respects, effective
internal control over financial reporting as of September 30, 2011. Our examination
included obtaining an understanding of NRC and its operations, including internal control
over financial reporting; considering NRC’s process for evaluating and reporting on
internal control over financial reporting which the NRC is required to perform by FMFIA;
assessing the risk that a material misstatement exists in the financial statements and the
risk that a material weakness exists in internal control over financial reporting; evaluating
the design and operating effectiveness of internal control and assessing risk; testing
relevant internal controls over financial reporting; and performing such other procedures
as we considered necessary in the circumstances. We did not test all internal controls
relevant to operating objectives as broadly defined by FMFIA.

An entity’s internal control over financial reporting is a process effected by those charged
with governance, management, and other personnel, the objectives of which are to
provide reasonable assurance that (1) transactions are properly recorded, processed,
and summarized to permit the preparation of financial statements in accordance with
accounting principles generally accepted in the United States of America, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; and
(2) transactions are executed in accordance with the laws governing the use of budget
authority and other laws and regulations that could have a direct and material effect on
the financial statements.

Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal
control to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.
We are also responsible for testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not
test compliance with all laws and regulations applicable to the NRC. We limited our
tests of compliance to selected provisions of laws and regulations that have a direct and
material effect on the financial statements and those required by OMB audit guidance
that we deemed applicable to the financial statements for the fiscal year ended
September 30, 2011. We caution that noncompliance may occur and not be detected by
these tests and that such testing may not be sufficient for other purposes.

We conducted our audit and examinations in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards,
issued by the Comptroller General of the United States; attestation standards
established by the American Institute of Certified Public Accountants; and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
believe that our audit and examinations provide a reasonable basis for our opinions.

We noted less significant matters involving the NRC’s internal control and its operation,
which we have reported to agency management separately.

Distribution

This report is intended solely for the information and use of the NRC Office of Inspector
General, the management of NRC, OMB, the GAO, and the United States Congress,
and is not intended to be and should not be used by anyone other than these specified
parties.




Arlington, Virginia
November 7, 2011
            NRC Fiscal Year 2011 Financial Statements and Notes

(Extracted from NRC’s Fiscal Year 2011 Performance and Accountability Report)
PRINCIPAL STATEMENTS
BALANCE SHEET (In                     Thousands)

 As of September 30,                                                                             2011            2010
 Assets
 Intragovernmental
    Fund balance with Treasury (Note 2)                                                      $   394,580     $   420,080
    Accounts receivable (Note 3)                                                                    8,287          7,674
    Other-Advances and prepayments                                                                  3,681          3,073
          Total intragovernmental                                                                406,548         430 ,827
 Accounts receivable, net (Note 3)                                                                92,009         123,242
 Properry and equipment, net (Note 4)                                                             46,542          36,231
 Other                                                                                                  41            25
 Total Assets                                                                                $   545,140     $ 590325

 Liabilities
 Intragovernmental
    Accounts payable                                                                         $    13,554     $    13,876
    Other (Note 5)                                                                                 4,010           5,986
          Total in tragovernmen tal                                                               17,564          19,862
 Accounts payable                                                                                 29,648          26,666
 Federal employee benefits (Note 6)                                                                7,245           7,575
 Other (Note 5)                                                                                   75,158         106,041
          Total Liabilities                                                                      129,615         160,144

 Net Position
 Unexpended appropriations                                                                       31 0,332        311,869
 Cumulative results of operations (Note 8)                                                       105,193         118,312
          Total Net Position                                                                     415,525         430,181
Total Liabilities and Net Position                                                           $   545,140     $   590,325


The accompanying notes to the principal statements are an integral part of this statement.
 FfN-ANCIAL STATEMENTS AND
AUDITOR'S ItEPORT




STATEMENT OF NET COST (I,t Thousands)
 For the years ended September .~O,                                                              2011            2010


 Nuclear Reactor Safety and Security
 Gross costs                                                                                 $   857,569     $   882,591


 Less: Earned revenue                                                                            (786,741)       (836,303)
     Total Net Cost of Nuclear Reactor Safety and Security (Note 9)                               70,828          46,288

 Nuclear Materials and Waste Safety and Security
 Gross costs                                                                                     239,350         257,862


 Less: Earned revenue                                                                            (101,919)        (87,178)
     Total Net Cost of Nuclear Materials and Waste Safety and Security (Note 9)                  137,431         170,684


 Net Cost of Operations                                                                      $   208,259     $   216,972




The accompanying notes to the principal statements are an integral part of this statement.
STATEMENT OF CHANGES IN NET POSITION                                               (In Thousands)

 I;or the years ended September 30,                                                              2011            2010


 Cumulative Results of Operations


 Beginning Balance                                                                           $    118,312    $    128,359


 Budgetary Fin anci ng Sources
 Appropriations used (Note 11)                                                                    134,626          137,113
 Non-exchange revenue (Note 11)                                                                          -                 -
 Transfers-in /o ut without reimbursement                                                           9,980          29,000


 Other Financing Sources
 Imputed financing from    COSts   absorbed by others (Note 11)                                    50,534          40,812
        Total Financing Sources                                                                  195,1 40        206,925


 Net Cost of Operations                                                                          (208,259)       (216 ,972)
 Net Change                                                                                       (13,119)        (10,047)
 Cumulative Results of Operations                                                            $   105,193     $    118 ,3 12


 Unexpended Appropriations


 Beginning Balance                                                                           $   311,869     $   338,637


 Budgetary Financing Sources
 Appropriations received                                                                         133,346         128,345
 Other adjustments (Rescissions)                                                                     (257)        (18,000)
 Appropriations used (Note 11)                                                                   (134,626)       (137,113)
    Total Budgetary Financing Sources                                                              (1,537)        (26,768)


Total Unexpended Appropriations                                                                  310,332         311,869
 Net Position                                                                                $   4 15,525    $   430,181


The accompanying notes to the principal statements are an integral part of this statement.
 FINANCIAL STATEMENTS AND
AUDITOR 'S REPORT 





STATEMENT Of BUDGETARY RESOURCES (In                                            Thousands)

 For (he 'cars ended Se tember 30,                                                                20)1              2010
 Budgetary Resources
 Unobligated balance, brought forward, October 1                                             $     44,699    $       81 ,126
 Recoveries of prior year unpaid obligations
    Actual                                                                                         18,841            22,446
 Budget authority
      Appropriation                                                                              1,054,219        1,066,859
      Spending authority from offsetting collections
         Reimbursements earned-collected                                                           12,439         10,086
         Reimbursements earned-change in receivables                                                  946            (424)
         Change in unfilled custOmer orders-advance received                                       (3,506)          1, 198
         Change in unfilled customer orders-without advance                                         4,614             493
         Subtotal-spending authority from offsetting collections                                   14,493         11 ,353
 Permanently not available                                                                           (257)       (I 8,000)
      Total Bude.etary Resources                                                             $ 1, 131,995    $ 1 163784
 Status of Budgetary Resources
 Obligations incurred (Note 12)
      Direct                                                                                 $1,078,667      $ 1,108,94 8
      Reimbursable                                                                                4,818           10,137
 SubtOtal                                                                                     1,083,485        1,119,085
 Unobligated balance
      Apportioned                                                                               28,853            29 ,744
      Exempt from apportionment                                                                  9,892             7,079
 Subtotal                                                                                       38,745            36,823
 Unobligated balance, not available                                                              9,765             7,876
      Total Status of Bude:etarv Resources                                                   $1131995        $ 1,163,784
 Change in Obligated Balance
 Obligated balance, net
 Unpaid obligations brought forward , O ctOber 1                                             $   375,381     $      367 ,498
 Obligations incurred , net                                                                    1,083,485          1,119.085
 G ross outlays                                                                               (1,088,396)        (1,088,68 7)
 Recoveries of prior year unpaid obligations, actual                                             (18,841)           (22,446)
 Change in uncollected customer payments. from Federal sources                                    (5,560)                (69)
 Obligated balance, net, end of period
      Unpaid obligations                                                                          359,402          383,154
      Uncollected custOmer yayments, from Federal sources                                         (13,333)           (7,773)
      Total unpaid obligated balance, net. end of period                                     $    346069     $     375,381
 Net outlays
     Gross outlays                                                                           $1,088,396      $ 1,088,687
     Offsetting collections                                                                       (8,933)        (11.284)
     Distributed offsetting receipts                                                           (910,901)        (909 ,51 4)
     Net O utlays                                                                            $ 168562        $ 167,889

The accompanying notes to the principal statements are an integral part of this statement.
NOTES TO THE PRlNCIPAL                                       the form and coment for entity financial statemems
                                                             specified by the Office of Managemem and Budget
STATEMENTS                                                   (OMB) in Circular No. A-136, "Financial Reporting
(All Tables are Presetlted;lI lhousands)                     Requ irements ." GAAP for Federal entities are the
                                                             standards prescribed by' the Federal Accouming Standards
Note 1.                                                      Advisory Board, which is the official body for setting the
SUMMARY OF SIGNIFICANT                                       accounting standards of the US. Government. These
ACCOUNTING POLICIE                                           statements are, therefore, different from the financial
                                                             reports, also prepared by the NRC pursuant to OMB
A. Rep01'tillg E1ltity                                       directives, which are used to monitor and control the
The US. Nuclear Regulatory Commission (NRC) is an            NRC 's use of budgetary resources .
independem regulatory agency of the Federal Governmem
                                                             The NRC has not presemed a Statemem of Custodial
that was created by the U.S. Congress to regulate the
                                                             Activity because the amoums involved are immaterial and
Nation's civilian use of byproduct, source, and special
                                                             incidemal to its operations and mission.
nuclear materials to ensure adequate protection of the
public health and safety, to promote the common defense      C. Budgets Iwd Budgeta,"y Accounting
and security, and to protect the environment. Its purposes
                                                             Budgetary accouming measures appropriation and
are defined by the Energy Reorganization Act of 1914, as
                                                             consumption of budget spending authority or other
amended, along with the Atomic Energy Act of 1954, as
                                                             budgetary resources and facilitates compliance with
amended, which provide the foundation for regulating the
                                                             legal constrain ts and comrols over the use of Federal
Nation's civilian use of nuclear materials.                  funds . Under budgetary reporting principles, budgetary
                                                             resources are consumed at the time of purchase. Assets
The NRC operates through the execution of its
                                                             and liabilities, which do not con sume current budgetary
congressionally approved appropriations for Salaries and
                                                             resources , are not reported, and only those liabilities
Expenses (which includes funds derived from the Nuclear
                                                             for which valid obligations have been established are
Waste Fund) and the Office of the Inspector General. In
                                                             considered to consume budgetary reso urces.
addition, the US. Agency for Internation al Development
(USAID) provides transfer appropriations to develop          For the past 37 years, Congress has enacted no-year
nuclear safety, regulatory authorities, and independent      appropriations, which ;re available for obligation by the
oversight of nuclear reactors in Russia, Ukraine,            NRC until expended. The Department ofDefense and
Kazakhstan, Georgia, and Armenia .                           Fuii-Year Continuing Appropriations Act, 2011 requires
                                                             the NRC to recover approximately 90 percem of its
B. Basis ofPresentation                                      new budget authority by assessing fees for licensing and
These principal statements report the financial position     inspection activities.
and results of operations of the NRC as required by the
ChiefFinancial Officers Act of 1990 and the Government       D. Basis ofAccounting
Management Reform Act of 1994. These financial               These financial statem~ms reflect both accrual and
statements were prepared from the books and records          budgetary accouming transactions. Under the accru al
of the NRC in conformance with generally accepted            method, revenues are recognized when earned and
accounting principles (GAAP) of the United States and        expenses are recognized when a liability is incurred,
FINANCIAL STATEMENTS AND
AUDITOR'S REPORT 





without regard to receipt or payment of cash. Budgetary         extent of new budget authority for the year. Collections
accounting is also used to record the obligation of funds       which exceed the new budget authority are held to
prior to the accrual-based transaction. The Statement           offset subsequent yeats' appropriations. Appropriations
of Budgetary Resources presents budgetary resources             expended for property and equipment are recognized as
available to the NRC and changes in obligations during          expenses when the asset is consumed in operations as
the year. Interest on borrowings of the U.S. Department         ref1ected by depreciation and amortization expense.
of the Tteasury (Treasury) is not included as a cost to
NRC programs and is not included in the accompanying            R Fund Baumce with Treasury
financial statements.                                           The NRC's cash receipts and disbursements are processed
                                                                by the Treasury. Tne Fund Balance with Treasury is
E. Revtmues and Othn' Fi1lanchzg Sources                        primarily appropriated funds that are available to pay
The NRC is required to offset its appropriations                current liabilities and to finance authorized purchase
by revenue received during the fiscal year from the             commitments. Fund Balance with Treasury represents
assessment of fees. The NRC assesses two types of fees          the NRC's right to draw on the Treasury for allowable
to recover its budget authority: (1) fees assessed under        expenditures.
Title 10 of the Code ofFederal R egulations (10 C FR)
Pan 170, "Fees for Facilities, Materials, Import and            G. Accounts Receivable
Export Licenses, and Other RegulatOry Services under the        Accounts receivable consist of amounts owed to the NRC
Atomic Energy Act of 1954, as Amended," for licensing,          by other Federal agencies and the public. Amounts due
inspection, and other services under the authority of the       from the public are presented net of an allowance for
Independent Offices Appropriation Act of 1952 to recover        uncollectible accounts. The allowance is determined
the NRC's COStS of providing individually identifiable          based on the age of the receivable and allowance rates
services to specific applicants and licensees; and (2) annual   established from historical experience. Receivables from
fees assessed for nuclear facilities and materials licensees    Federal agencies are expected to be collected; therefore,
under 10 CFR Part 171, '~nnual Fees for ReactOr                 there is no allowance for uncollectible accounts for Federal
Licenses and Fuel Cycle Licenses and Material Licenses."        agencies.
Licensing revenues are recognized on a straight-line basis
over the licensing petiod. The annual licensing period          H. N01l-Entity Assets
for teactOr and materials fees begins October 1 and ends        Non-entity assets consist of miscellaneous penalties and
September 30. Annual fees for reactors are invoiced in          interest due from the public, which, when collected, must
fout quarterly installments, before the end of each quartet.    be transferred to the Treasury.
The materials annual fee is invoiced in the month the
license was originally issued . Inspection fees are tecorded    I. Property and Equipmtmt
as revenues when the services are performed.                    Property and equipment consist primarily of typical office
                                                                furnishings, leasehold improvements, nuclear reactor
For accounting purposes, appropriations are recognized as
                                                                simulators, and computer hardware and software. The
financing sources (appropriations used) at the time goods
                                                                COStS of internal use software include the full cost of
and services are received. At the end of the fiscal year,
                                                                salaries and benefits for agency personnel involved in
apptopriations recognized are reduced by the amount
                                                                softwate development. The NRC has no real property.
of assessed fees collected duting the fiscal year to the
The land and buildings in which the NRC opera tes are           Federal Employee Bmpts
provided by the General Services Administration (GSA) ,
                                                                Fedetal employee benefits represent the actuarial liability
which charges the NRC rent that approximates the
                                                                for estimated future FECA disability benefits. The future
commercial rental rates for similar properties.
                                                                workers' compensation estimate was generated by DOL
Property with a cost of $50 thousand or more per unit and       from an application of actuarial procedures developed
a useful life of two years or more is capitalized at cost and   ro estimate the liability for FECA, which includes the
depreciated using the straight-line method over the useful      expected liability for death, disability, medical, and
life. Other property items are expensed when purchased.         miscellaneous costs for approved compensation cases.
Normal repairs and maintenance are charged ro expense           The liability is calculated using hisrorical benefit payment
as incurred.                                                    patterns related to a specific incurred period to predict the
                                                                ultimate payments related to that period. These projected
}. Accounts Payable                                             annual benefit payments are discounted ro present value.
The NRC uses an estimation methodology ro calculate             The interest rate assumptions utilized for discounting
the accounts payable balance which represents costs for         benefits are 3.54 percent and 4 .03 percent for FY 2011
billed and unbilled goods and services received (prior          and 3.65 percent and 4.22 percent for FY 2010.
ro year end) that are unpaid. The NRC had previously
used an estimation methodology ro calculate the                 Other
accounts payable bal ance based on a review of the sample       Accrued annual leave represents the amount of annual
obligations from the rotal open obligations balances.           leave earned by NRC employees but not yet taken.
For Fiscal Year 2011, the NRC calculates the accounts
payable amount using an average based on hisrorical trend       L. Co1ltingencies
of validated accruals. The estimation methodology is            Contingent liabilities are those for which the existence
validated quarterly.                                            or amount of the liability cannot be determined with
                                                                certainty pending the outcome of future events. The
K. Liabilities Not Covered by Budgeta11 Resources
                                                                N RC is a party to various administrative proceedings,
Liabilities represent the amount of monies or other             legal actions, environmental suits, and claims brought
resources that are likely ro be paid by the NRC as              by or against it. Based on the advice of legal counsel
the result of a transaction or event that has already           concerning contingencies, it is the opinion of management
occurred. No liability can be paid by the NRC absent an         that the ultimate resolution of these proceedings, actions,
appropriation . Liabilities for which an appropriation has
                                                                suits, and claims will not materially affect the agency's
not been enacted are classified as "Liabilities Not Covered
                                                                financial statements. As of September 30,2011, NRC
by Budgetary Resources ." Also, the NRC liabilities
                                                                was a party to one case where an adverse outcome was
arising from sources other than contracts can be abrogated
                                                                reasonably possible. The upper range of the loss on
by the Government acting in its sovereign capacity.
                                                                this potential liability is $150 thousand. As of
hztragove17111le71flll                                          September 30, 2010, the RC was a party to one case
                                                                where an adverse outcome was probable ($11.8 million)
The NRC records a liability ro the U.S. Department of
                                                                and one case where an adverse outcome was reasonably
Labor (DOL) for Federal Employees Compensation Act
                                                                possible (upper range of $150 thousand). Treasury's
(FECA) benefits paid by DOL on behalf of th e RC.
                                                                Judgment Fund paid out on the $ 11.8 million
                                                                FY 2010 contingent liability in FY 2011.
FINANCIAL STATEMENTS AND
AUDITOR'S REPORT 





M . Annual, Sick, and Other Leave                              The NRC does not repon on its financial statemems
Annual leave is accrued as it is earned and the accrual is     FERS and CSRS assets, accumulated plan benefits, or
reduced as leave is taken. Each year, the balance in the       unfunded liabilities, if any, applicable [Q its employees.
                                                               Reponing such amoums is the responsibility of the U.S .
accrued annual leave liability accoum is adjusted ro reflect
                                                               Office of Personnel Managemem. The ponion of the
currem pay rates. To the extem that currem or prior year
                                                               currem and estimated furure ourlays for CSRS nor paid
funding is not available ro cover annual leave earned bur
                                                               by the NRC is included in NRC's financial statemems
not taken, funding will be obtained from furure finanCing
sources. Sick leave and other types of non vested leave are    as an impured financing source in NRC's Statemem of
expensed as taken.                                             Changes in Net Position and as program costs on the
                                                               Sratemem of Net Cose.
N. Retirement PlAns
                                                               O. Leases
The NRC employees belong ro either the Federal
Employees Retiremem System (FERS) or the Civil                 The NRC's capital leases are for personal propeny
                                                               consisting of reproducrion equipmem which is installed
Service Retiremem System (CSRS). For FY 2011 and
                                                               at NRC headquaners . For FY 2011, there are six capital
FY 2010, for employees belonging [Q FERS, the NRC
                                                               leases with terms of five years, consisting of two capital
withheld 0.8 percem of base pay earnings, in addition ro
                                                               leases added in FY 2011 with an inrerest rate of 1.26
Federal Insurance Contributions Act (FICA) withholdings,
and matched the withholdings with an 11.5 percem               percem, two capital leases added in FY 2008 with an
                                                               imerest rate of 3.99 percem, and tWO capital leases that
comribution. The sum is rransferred [Q the Federal
                                                               were added in FY 2007 with an imerest rate of 4.58
Employees Retiremem Fund. For employees covered by
                                                               percenr. The reproduction equipmem is depreciated over
CSRS, the NRC withholds 7 percem of base pay earnings.
                                                               five years using the.srraight-line method with no salvage
The NRC matched this withholding with a 7 percem
                                                               value.
comribution in FY 2011 and FY 2010.
                                                               Operating leases consist of real property leases with
The Thrift Savings Plan (TSP) is a retiremem savings and
                                                               GSA . The leases are for NRC's headquarters and regional
investmem plan for employees belonging ro either FERS
                                                               offices. The GSA charges the NRC lease rates which
or CSRS. The maximum percemage of base pay that an
                                                               approximate commercial rates for comparable space.
employee panicipating in FERS or CSRS may comribute
is unlimited, subject ro the maximum comribution of            .P. Pricing Policy
$16.5 thousand in 2011 and $16.5 thousand in 2010. For
                                                               The NRC provides nuclear reactor and materials
employees panicipating in FERS, the NRC auromatically
                                                               licensing and inspection services [Q the public and other
comributes one percem of base pay ro their accoum and
                                                               Governmem emities. In accordance with OMB Circular
matches comriburions up to an additional 4 percene.
                                                               No. A-25, "User Charges," and the Independent Offices
For employees panicipating in CSRS, there is no NRC
                                                               Appropriation Act of 1952, the NRC assesses fees under
matching of the conrribution. The sum of the employees'
                                                               10 CFR Parr 170 for licensing and inspection activities to
and NRC's comriburions are transferred ro the Federal
                                                               recover the full cost of providing individually idemifiable
Retiremem Thrift Investmem Board.
                                                               services.
The N RC's policy is ro recover the full COSt of goods and       related co these allocation transfers (e.g .. budget authority,
services provided ro orher Government en tities where the        obligarions, ouclays) is reponed in the financial statements
services performed are not pan of its st3curory m ission        of the parent entity from wh ich the underlying legislative
and t he N RC has not received appropriations fo r chose        au th ority, appropriations, and budget apportionments
services. Fees for reimbursable work are assessed a t the       a re derived. The RC rece ives allocat ion transfers, as the
10 CFR Pa rr 170 rate with minor exceptions fo r programs       child, from USA ID .
that are nomin al ac tivities of t he RC.
                                                                 T.   tal   II ", ofNt't ( OIl
Q.   N~I   Po. i/Jo"                                            The programs as p rese nted on th e State ment of N t t C OSt
The N RC's net position consists of un ~x p e n ded             are based on the annual performance budget and are
a ppropriations and cumulativ results of operations .           described as foJ lows :
U n~xpended appropriations represent appropriated
spending aUthority that is unobligated and has not been         T he N uclear Reactor Safety and Security Program
                                                                encompasses all of the N RC efforts to ensure that
withdrawn by the Treasury and obligations that have nOt
                                                                civ il ian nuclear power reac[Qr faci lities and researc h and
been paid. Cumulative results of operations represent the
                                                                test reactors are licensed and operated in a manner that
excess of financing sources over expenses since inception .
                                                                adequately protects the public health and safety, and the
R. Uu of~/illlilgnlJnI'     EsUl1l1lUS                          env ironment . a nd p rotects against radiological sabotage
The preparation of [he accom panying financial statem ents      and theft or di version of spec ia l nuclear materials . The
in accordance w ith Generally Acce pted Accounting              Nuclear Re acro[ Safety and Security program contains the
Principles requires management co make cenain estimates         foll ow ing activiti es: operating reaCtors and new reac[Qrs.
and assumpt ions that affect the reponed amounts of             The Nuclear Materials and Waste Safety and Security
assets, liabilities, revenues, and expenses. Actual results     prog ram encompasses :tll N RC effons ro protect the
could differ from those eStimate~.                              pub li hea lt h and safety and the environment and ensures
                                                                the secure use and management of radioactive macerials.
 . Approprilltion Tmllsfn-s
                                                                The N uclear Mate ria ls a nd Waste Safety and Securicy
The N RC is a pany to allocation transfers with the
                                                                program contai n; che follo win g ac tivit ies: fuel facilities.
US AID as a rece iving (child) entity These transfers are       nuclear ma[er :a !s users, decommiss ioning and low-level
for the international development o f n uclear safe ty and
                                                                waste, spent fuel srorage and transportation, and high­
regulatory amhorities in Ru ssia. Ukraine. Kaza khstan,
                                                                level waste reposiro ry.
Georgia, and Armenia for the startup. operatio n .
shutdown . and decom missio n ing of Soviet-designed            For intragovernm~nral gross costs. [he buyers and sellers
nuclear power p lants; the safe and secure use of radioactive   are both F,:derai enril ies. For ea rned revenues from the
ma terial s; and the accounting for and protection of           pu bl ic, (he buyers of ch e goods or se rvices are non-Fede ral
nuclear materia ls. Allocation uansfers are legal delegations   entities.
by one agency of its authority co obi igate budget authority
and outlay funds to another agency. Al l fi nanc ial activity
FINAN CIAL STATEMENTS AND
AUDITOR'S REPO RT 





Note 2.   FUN 0 BALANCE WlTH TREASURY
                                                                                            2011             2010
Fund Balances
Appropriated funds                                                                      $   379,586      $   400,435
Nuclear Waste Fund                                                                           15,098           19,645
Other fund types                                                                              (104)                 -
  Total                                                                                 $   394,580      $   420,080

Status of Fund Balance with Treasury
Unobligated balance
   Available
     Appropriated funds                                                                 $    38,745      $    36,82 3
   Unavailable                                                                                9,765            7,876
Obligated balance not yet disbursed                                                         346,069          375,381
Non-budgetary funds with Treasury                                                                 1                     -
   Total                                                                                $   394,580      $   420,080

The Fund Balance with Treasury consists of unobligated and obligated balance budgetary accou nts . It includes Nuclear
Waste Fund activity. The Nuclear Waste Fund unobligated balance is $9.9 million and $7.1 million as of September 30,
2011, and 2010, respectively.

Note 3.   ACCOUNTS RECElVABLE
                                                                                            2011             2010
Intr~overnmental
Fee receivables and reimbursements                                                      $     8,287     $      7,674

Receivables with the Public
Materials and facilities fees-b illed                                                   $    13,107     $      2,611
Materials and facilities fees-un billed                                                      83,189          123,4 16
Other                                                                                           180                77
   Total Receivables with the Public                                                         96,476          126,1 04
Less : Allowance for uncollectible accou nts                                                 (4,467)          (2 ,862)
   Total Receivables with the Public, Net                                               $    92,009     $    123,242

Total Accounts Receivable                                                               $   104,763     $    133,778
Less: Allowance for uncollectible accounts                                                   (4,467)          (2,862)
   Total Accounts Receivable, Net                                                      $    100,296     $    130,916
Note 4 .   PROPERTY AND EQlJIPMENT. NET
                                                                              Accumulated
                                                                                                         2011                2010
             Fixed Assets Class               Senice
                                               Years
                                                       I     Acquisition
                                                               Value
                                                                              Depreciation
                                                                                  and
                                                                                                     Net Book               Net Book
                                                                                                      Value                  Value
                                                                              Amortization   I
 Equipmenc                                      5-8          $   12,942       $ (11,329)         $         1,613        $      1,941
 Leased equipment                               5-8               1,806           (1,157)                   649                  558
 IT software                                     5               52,855          (42,798)                 10,057               8,067
 IT software under development                    5               4,104                -                   4,104               5,153
 Leasehold improvemencs                          20              44,43 7         (29,309)                 15,128              14,040
 Leasehold improvements in progress               -              14,991                -                  14,991               6,472
     Total                                                   $ 131 , 135      $ (84, 593)        $        46,542        $     36,231

Note 5.    OTHERUABlLITlES
                                                                                                            2011              20)0
 Intragovernmental
 Liabilicy   [0   offset miscellaneous accouncs receivable                                            $            60   $              6
 Liabilicy for advances from other agencies                                                                        81                82
 Accrued workers' compensation                                                                                  1,753           1,719
 Accrued unemployment compensation                                                                                 37                31
 Employee benefit concributions                                                                                 2,079           4,148
     Total Intragovernmental Other Liabilities                                                        $         4,010   $       5,986


 Other Liabilities
 Accrued annual leave                                                                                $       49,918     $      50,413
Accrued salaries and benefits                                                                                   9,138          26,621
 Contract holdbacks, advances, capital lease liabilicy, and other                                               5,344           7,391
 Concingenc liabilities                                                                                             -          11,7 50
 Gran tS payable                                                                                             10,758             9,866
      Total Other Liabilities                                                                        $       75,158     $     106,04 1


     Total Intragovernmental and Other Liabilities                                                   $       79,168     $     112,027
Other liabilities are currenc except for capital lease liabilicy (Note 7 ).
 FINAN CIAL STATEMENTS AND
AU DI TOR'S REP ORT 





Note 6.   LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
                                                                                                 2011               20]0
 In tragovernmentaI
     FECA paid by DOL                                                                        $     1,753        $      1,719
     Accrued unemployment compensation                                                                37                  31
 Federal Employee Benefits
     Future FECA                                                                                   7,245              7,575
 Other
     Accrued annual leave                                                                         49,918             50,413
     Contingent liabilities                                                                                          11,750
       Total Liabilities not Covered by Budgetary Resources                                       58,953             71,488


      Total Liabilities Covered by Budgetary Resources                                            70,662             88,656
      Total Liabilities                                                                      $   129615         $   160,144

Liabil ities not Covered by Budgetary Resources represents the amount of future funding needed to pay the accrued
unfunded expenses as of September 30, 2011, and 2010. These liabilities are not funded from current or prior-year
appropriations and assessments, but rather should be funded from future appropriations and assessments. Accordingly,
future funding requirements have been recognized for the expenses that will be paid from future appropriations.

Note 7.   LEASES
                                                                                                 20]1               2010
 Assets under capital. leases:
    Copiers and booklet maker                                                                $     1,806        $      1,712
    Accumulated depreciation                                                                      (1,157)             (1,154)
    Net assets under capital. leases                                                         $       649        $        558


                                                                                         I       2011       I       2010
 Future Lease Payments Due:            Fiscal Year          Capital       Operating
                                           2011         $          -     $           -       $          -       $    31,647
                                           2012                  393           31,717             32,110             29,852
                                           2013                  105           33,696             33,801             24,754
                                           2014                    92          23,713             23,805             10,546
                                           2015                   93           20,781             20,874              7,603
                            2016 and thereafter                     -          79 ,483            79,483             31,595
                            Total Lease Liability                683          189,390            190,073            135,997
    Add: Imputed Interest                                         17                 -                17                 27
    Total Future Lease Payments                         $        700     $    1893 90        $   190,090        $   136,024
The Capital Lease Liability of$683 thousand is included in Other Liabilities (Note 5).
Nme 8.    CUMULATIVE RESULTS OF OPERATIONS
                                                                          2011           2010
LiabiJi(ies no r covered by budgerary resources (No(e 6)             $    (58,953)   $    (7 1,488)
Invesrmenr in properry and equipmenr, nee (Nore 4)                         46,542         36,231
Conrriburions from foreign cooperarive research agreemenrs                  3,997           3,632
Nuclear Was(e Fund                                                         15,024         19,592
Accounrs receivable - fees                                                 98,660        130,300
Fee collecrion revenue nor rransferred                                       (104)
Orher                                                                          27               45
   Cumulative Results ofO~erations                                   $    105,193    $    118,3 12


Nore 9.   STATEMENT OF NET COST
For the years ended September 30,                                        2011            2010
Nuclear Reactor Safety and Security
lnuagovernmenral gross cosrs                                         $   257,924     $   272,87 1
Less: Inrragovernmenral earned revenue                                   (59,332)         (54, 270)
   Inrragovernmenral ner cosrs                                           198,592         218,601


Gross cosrs wirh rhe public                                               599,644        609,720
Less: Earned revenues from rhe public                                    (727,408)       (782,033)
   Ner cosrs wirh rhe public                                             (127,764)       (172,313)


Total Net Cost of Nuclear Reactor Safety and Security                $    70,828     $    46,288


Nuclear Materials and Waste Safety and Security
Inrragovernmenral gross cosrs                                        $    71,987     $    64, 260
Less: Inrragovernmenral earned revenue                                    (7,686)          (7,3 14)
   Inrragovernmenral ner cosrs                                            64,301          56,946


Gross cosrs wirh rhe public                                              167,363         193,602
Less: Earned revenues from rhe public                                    (94,233)         (79,864)
   Ner cosrs wirh rhe public                                              73,130         113 ,738


To tal N et Cost of Nudear Materials and Waste Safety and Security   $   137,43 1    $   170,684
    FINANCIAL STATEMENTS AND
    AUDITORS REPORT 





    Note 10.   EXCHANGE REVENUES
                                                                                              2011            2010
     Fees for licensing. inspection, and other services                                  $    879,208     $    912.794
    Revenue from reimbursable work                                                              9,452           10.687
        Total Exchange Revenues                                                          $    888,660     $    923,481


    Note 11.   FINANCING SOURCES OTHER THAN EXCHANGE REVENUE
                                                                                             2011             2010
    Appropriations Used
    Collections were used ro reduce the fiscal year's appropriations recognized:
    Funds consumed                                                                       $1,060,178       $ 1.079.739
    Less: Collection from fees assessed                                                      (911,004)        (909.514)
    Less: Nuclear Waste Funding expense                                                       (14,548)         (33.112)
       Total Appropriations Used                                                         $   134,626      $   137,113
    Funds consumed include $44.7 million and $81.1 million through
    September 30, 2011 , and 20 lO respectively, of available funds from prior yea rs.
I                                                                                            2011             2010
    Non-Exchange Revenue
    Civil penalties                                                                      $           98   $       590
    Miscellaneous receipts                                                                       172              879
    Contra-Revenue                                                                               (270)          (1,469)
       Total Non-Exchange Revenue                                                        $                $


                                                                                             2011             2010
    Imputed Financing
    Civil Service Retirement System                                                      $    16,541      $    19.895
    Federal Employee Health Benefit                                                           21,24 5          20,825
    Federal Employee Group Life Insurance                                                           92               92
    Judgmen tslAwards                                                                         12,656 

       Total Imputed Financing 
                                                         $    50,534      $    40,812
Note 12.   TOTAL OBLIGATIONS rNCURRED
                                                                                                   2011             2010
 Direct Obligations
    Category A                                                                                $ 1,071,326       $ 1,079,158
    Exempt from Apportionment                                                                         7,341           29,790
       Total Direct Obligations                                                                  1,078,667         1,108,948
 Reimbursable Obligations                                                                             4,818           10,137
       Total Obligations Incurred                                                             $ 1)083,485       $ 1,119,085

Obligations exempt from apportionment are the result of funds derived from the Nucle.a r Waste Fund. Category A
Obligations consist of NRC appropriations only. Undelivered orders for the Nuclear Waste Fund are $5.0 million
and $12.5 million, Salaries and Expenses $289.7 million and $288.1 million, and the Office of the Inspector General
$2.2 million and $1.2 million through September 30, 2011, and 2010, respectively.

Note 13.   NUCLEAR WASTE FUND
Included in NRC's budget for FY 2011 and 2010 are $9. million and $29.0 million, respectively, provided from
the NWF. The Statement of Federal Financial Accounting Standards (SFFAS) No. 27, "Identifying and Reporting
Earmarked Funds," lists three defining criteria for an earmarked fund. Generally, an earmarked fund is established by
law to use specifically identified financing sources only for deSignated activities, and the statute provides explicit authority
to retain current, unused revenues for future use. Also, the law includes a requirement to account for and report on the
receipt and use of the financing sources as distinguished from general revenues.

Congress passed the Nuclear Waste Policy Act of 1982 (Public Law 97-425) establishing the NWF to be administered by
the DOE (42 U.s.c. 10222). Given the terms of the statute, the NWF clearly meets the definition of an earmarked fund
from DOE's perspective, and DOE does indeed report the NWF as an earmarked fund in its Agency Financial Report.

For the NRC , the NWF transfer is a source of financing; its receipt of NWF funds is a use of NWF resources. The NRC
collects no revenue on behalf of the NWF and has no administrative control over it. Furthermore, the Treasury has no
separate fund symbol for the NWF under the NRC's agency location code. The receipt and expenditure of NWF money
is reported to Treasury under the NRC's primary Salaries and Expenses fund (X0200).

Based on these facts , the NWF is not an earmarked fund from the NRC's perspective. In order to provide additional
information to the users of these financial statements, enhanced disclosure of the fund is presented below.

The funding provided to the NRC in FY 2011 and FY 2010 was for the purpose of performing activities associated with
DOE's application for a high-level waste repository at Yucca Mountain, NY. These activities included review of the
application, conduct of thorough safety and security evaluations, preparation of the safety evaluation report, initiation of
the inspect ion program, ensuring that the regulation process was made available to stakeholders and the general public,
and providing legal advice and representation for staff reviews and Commission actions .
FINANCI AL STATEMENTS AND
AUDITOR'S REPORT 





The NWF amounts received, expended, obligated, and unobligated balances as of September 30, 2011, and 2010 are
shown in the following:

                                                                                              2011            2010
 Appropriations received                                                                  $      9,980    $      29,000
 Expended appropriations                                                                  $     14,601    $      34,308
 Obligations incurred                                                                     $      7,341    $      29,790
 Unobli ated balances                                                                     $      9,996    $       7,079

     EXPLANATION OF DIFFERENCES BETWEEN TH E STATEMENT OF
Note 14.
BUDGETARY RESOURCES AND THE BUDGET OF THE U.S. GOVERNMENT
The Statement of Federal Financial Accounting Standards (SFFAS) N o. 7, "Accounting for Re venue and Other Financing
Sources," requires the NRC to reconcile the budgetary resources reported on the Statement of Budgetary Resources ro
the prior fiscal year actual budgetary resources presented in the Budget of the U .S. Government and explain any material
differences. The NRC does not have any material differences between the Statement of Budgetary Resources and the
Budget of the U.S . Government.


Note 15. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGETARY RESOURCES

 For the years ended September 30,                                                            20U             2010
Budgetary Resources Obligated
    Obligations incurred (Note 12)                                                        $ 1,083,485     $ 1,119,085
    Less: Spending authority from offsetting collections and recoveries                        (33,334)        (33.799)
    Less: Distributed offsetting receipts                                                     (910,901)       (909,514)
      Net Obligations                                                                         139,250          175,772
Other Resources
    Imputed financing from COStS absorbed by others                                            50,534           40,812
     Net Other Resources Used ro Finance Activities                                            50,534           40,812
      Total Resources Used to Finance Activities                                              189,784          216,584
Resources Used to Finance Items not Pan of the Net Cost of Operations                          (14,846)        (19,668)
      Total Resources Used ro Finance the Net Cost of Operations                              174,938          196,916
Components of the Net COSt of Operations that will not require or generate resources
in the current period                                                                          33,321           20,056
Net Cost of Operations                                                                   $    208,259     $    216,972
RfQ1lIRED SUPPLEMENTARY INFORMATION
Schedule of Budgetary Resources (I,l 1hoUSa1lds)




UnobLigated balances, brought rward , October 1                 $       42,812     $      1,887   $           $       44,699
Recoveries of prior year obligations
   Actual                                                               18,411             430                        18,841
Budget authority
   Appropriation                                                     1,043,463          10,860        (104)        1,054,219
   Spending authority from offsetting collections
       Reimbursements earned-collecred                                                      39                        12,439
       Reimbursements earned-change in receivables                                                                       946
       Change in unfJled customer orders-advance received                                                             (3,506)
                                                  advance




Obligations incurred (Nore 12)
       Direcr
       Reimbursable




Obligated balance, net
Unpaid obligations, brought forward, October 1                  $      374,425     $        956   $           $      375,381
Obligarions incurred, net                                            1,07 1,283          12,202                    1,083,485
Gross outlays                                                       (1,076,362)        (12,034)                   (1,088,396)
Recoveries of prior year obligations, actual                           (18 ,411)          (430)                      (18,841)
Change in uncollected customer payments, from Fedetal sources           (5,560)                                       (5,560)
Obligated balance, net, end of period
    Unpaid obligations                                                358,708              694                      359,402
FI N-ANCIAL STATEMENTS AND
AUDlTOR'S REPORT




SCHEDULE OF SPENDING (UNAUDITED)
(In Thousands)
For lhe fiscal year t:nded September 30 , 2011                           FY 2011
What money is available to spend?


Total Resources                                                     $   1,131 ,995 

  Less Amount Not Agreed to be Spent                                     (38,745) 

  Less Amo unt Not Available to be Spent                                   (9,765) 

Total Amounts                      ent                              $   1,083,485 



How was the money spent?
Nuclear Reactor Safety and Security
  Payroll                                                           $     503,200
  Contracts                                                               225,120
  Travel                                                                   21,642
  Rent, Communication and Utilities                                        34,614
  Structures and Equipment                                                 18,241
  Other                                                                    48,309
Total Spendin of Nuclear Reactor Safety and Security                $    851,126


Nuclear Materials and Waste Safety and Security
  Payroll                                                           $    140,278
  Contracts                                                               62,757
  Travel                                                                   6,033
  Rent, Communication and Utilities                                        9,650
  Structures and Equipment                                                 5,079
  Other                                                                   13,473
Total Spending of Nuclear Materials and Waste Safety and Security   $    237,270

Total Spending                                                      $   1,088,396


Spending Related to Prior Year Amounts Agreed to be Spent                 (4,911)

Total Amount Agreed to be Spent                                     $   1,083,485
